APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Seventh Circuit
(September 26, 2019) . . . . . . . . . . App. 1
Appendix B Memorandum and Order in the
United States District Court for the
Southern District of Illinois
(December 17, 2018) . . . . . . . . . . App. 14
Appendix C Judgment in a Civil Action in the
United States District Court for the
Southern District of Illinois
(December 17, 2018) . . . . . . . . . . App. 36
Appendix D Order Denying Petition for Rehearing
and for Rehearing En Banc in the
United States Court of Appeals for the
Seventh Circuit
(October 25, 2019) . . . . . . . . . . . . App. 38
Appendix E 29 U.S.C. § 2101 . . . . . . . . . . . . . App. 40
29 U.S.C. § 2102 . . . . . . . . . . . . . App. 42
20 C.F.R. § 639.1 . . . . . . . . . . . . . App. 43
20 C.F.R. § 639.3 . . . . . . . . . . . . . App. 44
Appendix F Hamilton
County
Coal, LLC
February 5, 2016 Letter to Carl
Leeper . . . . . . . . . . . . . . . . . . . . . App. 45

ii
Appendix G Hamilton County Coal Frequently
Asked Questions Concerning the
Temporary Layoffs . . . . . . . . . . . App. 47
Appendix H Alliance Coal, LLC August 1, 2015
Letter to Carl Leeper . . . . . . . . . App. 57

App. 1

APPENDIX A
In the
United States Court of Appeals
For the Seventh Circuit
No. 19-1109
[Filed September 26, 2019]
____________________________________
CARL LEEPER, individually and on
)
behalf of all others similarly situated, )
Plaintiff-Appellant,
)
)
v.
)
)
HAMILTON COUNTY COAL, LLC, and
)
ALLIANCE RESOURCE PARTNERS, L.P., )
Defendants-Appellees.
)
___________________________________ )
Appeal from the United States District Court
for the Southern District of Illinois.
No. 16-CV-250 — Nancy J. Rosenstengel,
Chief Judge.
____________________
ARGUED MAY 17, 2019 —
DECIDED SEPTEMBER 26, 2019
____________________
Before RIPPLE, MANION, and SYKES, Circuit Judges.

App. 2
SYKES, Circuit Judge. A group of workers at an
Illinois coal mine received some unwelcome news on
February 5, 2016. Their employer, Hamilton County
Coal, LLC, announced a “temporary layoff” with an
expected end date of August 1, 2016. Carl Leeper, a
full-time maintenance worker at the mine, responded
with this class action under the Worker Adjustment
and Retraining Notification Act (the “WARN Act” or
“the Act”), which requires employers to give affected
employees 60 days’ notice before imposing a “mass
layoff.” 29 U.S.C. § 2102(a)(1). The Act defines a mass
layoff as an event in which at least 33% of a site’s fulltime workforce suffers an “employment loss.” Id.
§ 2101(a)(3)(B). The district court entered summary
judgment for Hamilton because the work site did not
experience a “mass layoff” as defined in the Act.
We affirm. The record contains no evidence of a
mass layoff. The term “employment loss” is defined as
a permanent termination, a layoff exceeding six
months, or an extended reduction of work hours. None
of those events occurred here. Instead, Hamilton
initiated a temporary layoff of under six months.
I. Background
Hamilton operates a coal mine near Dahlgren,
Illinois.1 On February 5, 2016, Leeper and 157 other
full-time employees received a hand-delivered
“Temporary Layoff Notice” on Hamilton letterhead.
The notice announced that “due to operational
1

In 2015 Hamilton became a subsidiary of Alliance Resource
Partners, L.P. Alliance is a codefendant but played no role in these
events, so we mention it no further.

App. 3
considerations,” Hamilton was placing the workers “on
temporary layoff for the period commencing on
February 6, 2016 and ending on August 1, 2016.” The
notice invited them to return on that end date: “On
August 1, 2016, you may return to your at-will
employment with Hamilton County Coal.” In the
meantime, however, the laid-off workers would “not be
employed by Hamilton County Coal” and were “free to
pursue other endeavors.”
The employees also received a document entitled
“Frequently Asked Questions Concerning the
Temporary Layoffs,” which explained that “[a]
temporary layoff is treated as a termination of
employment for purposes of wages and benefits.” It also
provided information about health insurance,
retirement accounts, and other benefits. Not long after
Leeper and his coworkers received the notice, some
mine workers began returning to work. Of the 158
notice recipients, 56 resumed their employment with
full pay within six months.
About a month after receiving the notice, Leeper
filed this class-action suit alleging that Hamilton
violated the WARN Act by failing to provide 60 days’
notice before imposing a “mass layoff.” § 2102(a)(1).
The Act defines a “mass layoff” as “a reduction in force”
that “results in an employment loss at the single site of
employment during any 30-day period for … at least 33
percent of the [full-time] employees … ; and at least 50
employees.” § 2101(a)(3)(B). The Act lists three
categories of “employment loss”: “(A) an employment
termination, other than a discharge for cause,
voluntary departure, or retirement, (B) a layoff

App. 4
exceeding 6 months, or (C) a reduction in hours of work
of more than 50 percent during each month of any 6month period.” 29 U.S.C. § 2101(a)(6).
Leeper alleged two forms of employment loss. He
first asserted that more than 33% of the mine’s fulltime workers suffered an “employment termination”
within the meaning of § 2101(a)(6)(A). He later added
an allegation that Hamilton reduced the “hours of work
[by] more than 50 percent during each month of any 6month period.” § 2101(a)(6)(C).
Ruling on cross-motions for summary judgment, the
district judge rejected Leeper’s first theory that the
mine workers experienced an employment termination
within the meaning of the Act. Relying on regulatory
guidance distinguishing an employment termination
from a layoff, the judge placed this work stoppage in
the latter category. And because the layoff did not
exceed six months and 56 workers returned to full-time
employment within that time, the workers hadn’t
suffered an employment loss and the WARN Act’s 33%
threshold was not met. See § 2101(a)(6)(B) (categorizing
“a layoff exceeding 6 months” as an “employment loss”)
(emphasis added).
Turning to Leeper’s second argument, the judge
framed the issue as whether a “layoff” under the Act
“can simultaneously be considered a ‘reduction in hours
of work of more than 50 percent in each month of any
6-month period.’” If so, § 2101(a)(6)(B) would be
superfluous because every layoff exceeding six months
would already constitute a “reduction in hours” under
§ 2101(a)(6)(C). The judge concluded that subsections
(B) and (C) describe distinct categories of work

App. 5
stoppages. This case involved a layoff, she held, and
because it did not exceed six months, it was not covered
by the Act. The judge entered final judgment for
Hamilton. This appeal followed.
II. Discussion
We review a summary judgment de novo, reading
the record in the light most favorable to Leeper and
drawing all reasonable inferences in his favor. Tolliver
v. City of Chicago, 820 F.3d 237, 241 (7th Cir. 2016).
The sole question is whether the evidence
establishes that a mass layoff occurred. Leeper
maintains that more than 33% of the mine’s full-time
workforce experienced an employment termination
within the meaning of § 2101(a)(6)(A). Alternatively, he
argues that a sufficient number of workers suffered a
“reduction in hours of work of more than 50 percent
during each month of any 6-month period” under
§ 2101(a)(6)(C).
A. Employment Termination
We begin by distinguishing an “employment
termination” from a “layoff.” Department of Labor
guidance explains that “for the purposes of defining
‘employment loss,’ the term ‘termination’ means the
permanent cessation of the employment relationship
and the term ‘layoff’ means the temporary cessation of
that relationship.” Worker Adjustment and Retraining
Notification, 54 Fed. Reg. 16,042, 16,047 (Apr. 20,
1989). Other circuits have embraced this distinction.
See, e.g., Morton v. Vanderbilt Univ., 809 F.3d 294, 296
(6th Cir. 2016); Long v. Dunlop Sports Grp. Americas,
Inc., 506 F.3d 299, 302 (4th Cir. 2007). The presence of

App. 6
temporal language in § 2101(a)(6)(B)—”exceeding 6
months”—and its absence from § 2101(a)(6)(A)
supports the Department’s interpretation.
This distinction raises a follow-up question: How do
we evaluate whether a cessation of the employment
relationship is permanent or temporary? It’s always
possible for a worker to be rehired in the future, so one
can never know for sure whether a termination is
permanent. Do we evaluate permanence from the exante perspective of a worker who just received a
dismissal notice, from the ex-post perspective of a court
presented with evidence that workers were rehired, or
something in between?
Consider this hypothetical: On January 1 Steve’s
employer informs him, quite unequivocally, that he is
fired. Five months later the employer calls Steve and
offers to rehire him. He accepts. For WARN Act
purposes, what happened to Steve? With the benefit of
hindsight, it might seem obvious that Steve
experienced a “temporary cessation” of his
employment—that is, a layoff. And because the layoff
did not exceed six months, Steve didn’t suffer an
“employment loss” under § 2101(a)(6)(B). So he doesn’t
count toward the Act’s 33% threshold. The judge here
basically took that approach, reasoning that the 56
workers who “were fully restored to pre-layoff wages
within six months” did not experience a permanent
termination of employment. Hamilton of course prefers
this analysis.
Leeper urges us to reject this hindsight-based
reasoning. Instead he proposes a test based on an
employee’s objective expectation of recall. If a

App. 7
reasonable employee would interpret the firing as
permanent, then Leeper would say that a
§ 2101(a)(6)(A) employment termination occurred. So in
the example above, Steve suffered an employment
termination on January 1. His eventual rehiring is
irrelevant to that categorization.
Leeper has the better argument. Congress specified
three separate and distinct categories of employment
action in § 2101(a)(6). We must respect the choice
embodied by that statutory structure. To that end, we
avoid giving a provision “an interpretation that causes
it to duplicate another.” Nielsen v. Preap, 139 S. Ct.
954, 969 (2019) (quoting ANTONIN SCALIA & BRYAN A.
GARNER, READING LAW: THE INTERPRETATION OF LEGAL
TEXTS 174 (2012)). The judge’s retrospective analysis
makes § 2101(a)(6)(A) duplicative. If a period of
unemployment must exceed six months to constitute an
employment termination, then that category is
functionally indistinguishable from § 2101(a)(6)(B).
That reading condemns prospective WARN Act
plaintiffs to statutory limbo. An aggrieved worker
might think that evidence of an unambiguous firing
clearly satisfies § 2101(a)(6)(A). But under Hamilton’s
reasoning, this wouldbe plaintiff cannot know whether
an employment termination occurred until the event
also qualifies as a “layoff exceeding six months.” That
disregards our decision in Phason v. Meridian Rail
Corp., 479 F.3d 527 (7th Cir. 2007). There we explained
that “[a]n ‘employment loss’ occurs when any one of the
subsections applies.” Id. at 529. Hamilton’s proposed
interpretation effectively appends a six-month waiting

App. 8
period to § 2101(a)(6)(A) that appears nowhere in the
text.
The better reading of the statute is that
§ 2101(a)(6)(A) and (B) require an initial categorization
of the dismissal imposed on the employee. Was the
worker permanently terminated or temporarily laid
off? Answering that threshold question requires an
objective analysis of the employee’s dismissal notice,
not a hindsight-informed count of how many employees
returned within a six-month period.
After this initial categorization, later events may
become relevant to the Act’s mass-layoff inquiry. For
instance, the statute tells us:
A layoff of more than 6 months which, at its
outset, was announced to be a layoff of 6 months
or less, shall be treated as an employment loss
under this chapter unless—
(1) the extension beyond 6 months is caused
by business circumstances … not reasonably
foreseeable at the time of the initial layoff;
and
(2) notice is given at the time it becomes
reasonably foreseeable that the extension
beyond 6 months will be required.
29 U.S.C. § 2102(c). This language only confirms the
necessity of an up-front determination. To apply
§ 2102(c), we must first determine whether the
relevant action was “announced to be a layoff.” Once
we’ve categorized the dismissal as a layoff, we can
evaluate its duration. Conversely, the statute doesn’t

App. 9
impose a duration requirement on “employment
termination,” which evokes an event rather than a
period.
The judge relied in part on Rifkin v. McDonnell
Douglas Corp., where the employer gave employees a
“layoff notice” explaining that the layoff was “expected
to be permanent.” 78 F.3d 1277, 1282 (8th Cir. 1996).
Some recipients of the notice were rehired within six
months. Id. at 1279. The Eighth Circuit reasoned:
A common sense reading of the statute indicates
it is the actuality of a termination which controls
and not the expectations of the employees. An
employee cannot be defined as “terminated” if he
or she is, in fact, rehired in the same position.
Further, the fact that the layoff was merely
“expected to be permanent” as opposed to a
termination left open the possibility of a rehire
and thus weighs against classifying this
situation as an employment termination.
Id. at 1282 (emphasis added).
The Eighth Circuit’s holding rested in part on the
court’s view of the WARN Act’s purpose: “to ensure
adequate opportunities (by way of notice of imminent
employment loss) for retraining and/or reemployment.”
Id. (quotation marks omitted). Because the rehired
workers had “no need for retraining or alternative
jobs,” they did not suffer an “employment loss” under
the Act. Id.
But the WARN Act doesn’t define “employment loss”
as an event requiring retraining or an alternative job.
And “[d]eciding what competing values will or will not

App. 10
be sacrificed to the achievement of a particular
objective is the very essence of legislative choice,” so we
cannot simply “assume that whatever furthers the
statute’s primary objective must be the law.” Rodriguez
v. United States, 480 U.S. 522, 526 (1987) (per curiam).
As we’ve explained, the Act delineates distinct
categories in its definition of “employment loss.” See
Phason, 479 F.3d at 529. A retrospective analysis that
blurs the distinctions between the categories is
inconsistent with the Act’s text and structure.
Accordingly, if an objective observer would conclude
that an employee suffered a permanent cessation of his
employment relationship, a § 2101(a)(6)(A)
“employment termination” occurred. The employer’s
subsequent decision to offer the employee his old job
cannot retroactively transform that once-permanent
firing into a temporary layoff.
We now return to February 2016, when Hamilton
furnished 158 full-time workers with the layoff notice
and Frequently Asked Questions documents. What did
Hamilton communicate to Leeper and his coworkers: a
temporary suspension or permanent end to their
employment?
Even construed in Leeper’s favor, the record reveals
that Hamilton announced a temporary cessation of his
employment. The notice referred to the employment
action as a “temporary layoff” and defined a precise
“layoff period.” And it instructed the workers to
return—not reapply to return—once that period ended:
“On August 1, 2016, you may return to your at-will
employment with Hamilton County Coal.” Nothing in

App. 11
the notice suggests a “permanent cessation of the
employment relationship.” 54 Fed. Reg. at 16,047.
Leeper cites other statements in the documents,
arguing that Hamilton “invok[ed] policies applicable to
employment terminations,” not layoffs. And while the
notice called the event a layoff, the Frequently Asked
Questions packet explained that “[a] temporary layoff
is treated as a termination of employment for purposes
of wages and benefits.” It also said that workers were
eligible for unemployment benefits and referred to the
“employment termination date.” Finally, Leeper
observes that Hamilton withheld advances, provided
separation benefits, and paid out unused vacation days
in the paycheck for the last pay period prior to the
layoff.
In short, Leeper offers evidence that his
employment was terminated. That’s necessary but
insufficient. The relevant distinction between a layoff
and an employment termination is whether that
termination was expected to be temporary or
permanent. Leeper hasn’t generated a material factual
dispute on that point. Hamilton clearly announced a
temporary layoff lasting under six months, and no
language in either the notice or the Frequently Asked
Questions shows that Leeper and his coworkers were
permanently fired. Moreover, Leeper never argues that
the layoff extended beyond six months, implicating
§§ 2101(a)(6)(B) and 2102(c). Accordingly, the mine
workers did not experience an employment termination
under § 2101(a)(6)(A).

App. 12
B. Hours Reduction
Alternatively, Leeper argues that more than 33% of
the mine workforce suffered “a reduction in hours of
work of more than 50 percent during each month of any
6-month period.” § 2101(a)(6)(C). His logic is simple:
When an employer terminates an employee, it reduces
his hours to zero—by definition, more than a 50% cut.
Leeper’s interpretation merges subsections (B) and
(C) of § 2101(a)(6). Under his reasoning, every “layoff
exceeding 6 months” would also constitute a six-month
“reduction in hours of work.” So once again there is a
surplusage problem. And his reading contradicts the
plain meaning of subsection (B). A “reduction in hours
of work”—unlike the other two events—is not a
cessation of the worker’s employment relationship. It
occurs when an employer retains an employee but
assigns him less work, effectively cutting his pay.
That’s a difference in kind, not degree. Leeper’s
interpretation also contradicts the duration
requirement in subsection (B). If a temporary layoff is
also a “reduction in hours of work,” then it becomes an
“employment loss” after five and a half months, not six.
That odd construction poses problems for § 2102(c),
which provides that some layoffs in excess of six months
do not constitute an employment loss.
Leeper cites Graphic Communications International
Union, Local 31-N v. Quebecor Printing (USA) Corp.,
252 F.3d 296 (4th Cir. 2001), but that case considered
whether a worker can experience successive
employment losses—for instance, when a permanent
termination follows a layoff. The Fourth Circuit
concluded that the WARN Act envisions successive

App. 13
employment losses necessitating separate warnings. Id.
at 299. But that doesn’t support Leeper’s contention
that the same employment action can satisfy both the
“layoff” and “reduction in hours” categories.
Hamilton initiated a layoff lasting under six
months. Under Department of Labor guidance, that
temporary cessation of the employment relationship
wasn’t an employment termination under
§ 2101(a)(6)(A). And because Hamilton laid off the
affected employees rather than reducing their work
hours, § 2101(a)(6)(C) is irrelevant. Leeper cannot show
that more than 33% of the mine’s full-time workforce
experienced an employment loss. Because this was not
a mass layoff under the Act, Hamilton wasn’t obligated
to give the workers 60 days’ notice.
AFFIRMED

App. 14

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF ILLINOIS
Case No. 16-CV-250-NJR-DGW
[Filed December 17, 2018]
__________________________________________
CARL LEEPER, individually and on
)
behalf of all others similarly situated,
)
Plaintiff,
)
)
vs.
)
)
ALLIANCE RESOURCE PARTNERS, L.P., )
and HAMILTON COUNTY COAL, LLC,
)
Defendants.
)
_________________________________________ )
MEMORANDUM AND ORDER
ROSENSTENGEL, District Judge:
Pending before the Court is a Motion for Summary
Judgment filed by Defendants (Doc. 71), a Motion to
Oppose Plaintiff’s Proposed Class Certification or to
Stay Class Certification Pending Resolution of
Defendants’ Motion for Summary Judgment filed by
Defendants (Doc. 72), a Motion to Certify Class filed by
Plaintiff Carl Leeper (“Leeper”) (Doc. 82), a second
Motion for Summary Judgment filed by Defendants
(Doc. 136), a Motion for Summary Judgment filed by

App. 15
Leeper (Doc. 138), and a Motion to Amend/Correct
Motion to Certify Class filed by Leeper (Doc. 157).
FACTUAL & PROCEDURAL BACKGROUND
Leeper brings this putative class action against
Defendants Alliance Resource Partners, L.P.
(“Alliance”) and Hamilton County Coal, LLC
(“Hamilton”), alleging violations of the Worker
Adjustment and Retraining Notification Act (the
“WARN Act”), 29 U.S.C. § 2101 et seq. Specifically,
Leeper alleges that Defendants violated his rights and
a class of similarly situated persons’ rights under the
WARN Act by failing to provide timely notice to
workers who suffered an employment loss.
Leeper was a full-time employee of Hamilton
(Doc. 136-3, p. 27).1 Hamilton is a subsidiary of Alliance
(Doc. 153, p. 24; Doc. 153-2, p. 5-6). Leeper specifically
worked at the Hamilton County Coal Mine #1, which is
an underground mining complex located near the city
of Dahlgren in Hamilton County, Illinois (Doc. 37, p. 3;
Doc. 136-3, p. 2).
During a meeting held on February 5, 2016,
Hamilton delivered written notice to 158 full-time
employees stating that “due to operational
considerations,” the employees would be placed on a
“temporary layoff for the period commencing on
February 6, 2016 and ending on August 1, 2016
(“Layoff Period”).” (Doc. 71-2, p. 7). Hamilton explained

1

The parties dispute whether Leeper was also an employee of
Alliance for purposes of the WARN Act (Doc. 138, p. 23-26;
Doc. 153, p. 23-26).

App. 16
that “[o]n August 1, 2016, [the employees] may return
to [their] at-will employment with Hamilton County
Coal.” (Id.). The written notice further advised that
“[d]uring the Layoff Period, and beginning effective
February 6, 2016, [the employees] will not be employed
by Hamilton County Coal” and “are free to pursue
other endeavors . . . [the employees] will receive
additional information related to any separation
benefits to which [they] may be entitled.” (Id.).
Along with this notice, employees received a
document entitled “Frequently Asked Questions
Concerning the Temporary Layoffs” (“FAQs”) (Doc. 712, p. 9). This document stated that “[a] temporary layoff
is treated as a termination of employment for purposes
of wages and benefits.” (Id.). It explained, among other
things, that the employees’ health care coverage would
end, an advance would be withheld from their final
paycheck (if they elected to receive a pay advance),
disability benefits would end, life insurance would end,
and accrued and unused vacation days would be paid
out in a lump sum (Doc. 71-2).
The employees were also given a pamphlet setting
forth their rights regarding unemployment benefits
(Doc. 153-1, p. 14-17) and a contact form to fill out so
Hamilton could reach the employees for return to work
purposes (Doc. 71-2, p. 19; Doc. 71-2, p. 3; Doc. 71-4,
p. 3).
Less than six months later, by August 1, 2016, 61
full-time employees had returned to work at Hamilton.2
2

Some employees started returning to work as early as
February 10, 2016 (Doc. 75, p. 93).

App. 17
Of those employees, 56 employees returned to their
prior wages, and 5 employees returned to work at
reduced wages.3 These employees were not required to
submit applications for employment, nor where they
required to interview for their positions (Doc. 71-2,
p. 3).4 Sixteen full-time employees voluntarily declined
the opportunity to return to work, and one employee
was discharged for cause because he tested positive
during a drug screen. Out of all 158 full-time
employees that received the notice, 80 employees did
not receive offers to return to work within six months.
On March 8, 2016, Leeper filed this lawsuit on
behalf of himself and a class of similarly situated
individuals alleging that Defendants failed to provide
a “60-day advanced notice of a ‘mass layoff’ of nearly
3

The numbers have changed over the course of the briefing, which
has caused the Court some confusion. At the hearing on August 13,
2018, the undersigned explicitly confirmed with the attorneys on
both sides that the above-mentioned statements regarding the
total amount of full-time employees, the amount of full-time
employees who received the written notice, the amount of full-time
employees that returned to work (at full wages and reduced
wages), the amount of full-time employees that voluntarily
declined the opportunity to return to work, and the amount of fulltime employees that were discharged for cause are accurate.
4

Specifically, these workers were called by Hamilton
representatives regarding the opportunity to return to work (Doc.
121-6, p. 6). If the employee said “yes,” then he was told to report
to work on a certain date and that he would be required to undergo
the necessary retraining and to submit to return-to-work screening
(Doc. 121-7, p. 2). Employees also were required to fill out
paperwork with human resources, such as an employee
authorization form, which indicated that they were a “rehire,” the
hourly wage offered, and the start date (Doc. 124).

App. 18
200 employees that occurred at its Hamilton County
Coal Mine #1 on February 5, 2016” in violation of the
WARN Act (Doc. 1). Leeper alleges that Defendants
instead provided less than twenty-four hours’ notice
that they were terminating their employment and that
all benefits would cease as of the date of termination
(Id.). On January 4, 2017, Leeper filed an Amended
Complaint, alleging an alternative theory that
Defendants’ actions on February 6, 2016 constituted a
mass layoff because the employees experienced a
reduction in hours of work of more than 50% during
each month between February 6, 2016 and August 6,
2016 (Doc. 37).
Leeper’s First Amended Class Action Complaint
brings claims pursuant to Federal Rule of Civil
Procedure 23(a), 23(b)(1), 23(b)(3), and 23(c)(4), and the
WARN ACT, 29 U.S.C. § 2104(a)(5). On March 21,
2018, Defendants filed a Motion for Summary
Judgment (Doc. 71) and a preemptive Motion to Oppose
Plaintiff’s Proposed Class Certification or to Stay Class
Certification Pending Resolution of Defendants’ Motion
for Summary Judgment (Doc. 72). On March 27, 2018,
Leeper filed a Motion to Certify Class (Doc. 82) seeking
to certify the following classes and subclasses:
Class 1:
All persons: (a) to whom Hamilton delivered the
form letter attached hereto as Exhibit 14; or
(b) whose employment at the Complex was
terminated without cause within 90 days of
February 6, 2016, without 60-days’ advance
written notice.

App. 19
Subclass 1:
All persons: (a) in Class 1(a) who: (i) did not
work at the Complex between February 6,
2016 and August 6, 2016; or (ii) were rehired
at the Complex between February 6, 2016,
and August 6, 2016, at a salary or regular
hourly wage less than the person’s salary or
regular hourly wage at the Complex as of
February 5, 2016; or (iii) were rehired at the
Complex between February 6, 2016, and
August 6, 2016, but worked fewer hours per
week than the person’s hours per week
worked at the Complex as of February 5,
2016; or (b) in Class 1(b).
Class 2:
All persons who: (a) are in Subclass 1; or
(b) experienced a reduction in hours of work at
the Hamilton County Coal Mine #1 Complex of
more than 50 percent during each month of the
6-month period between February 6 and August
6, 2016.
(Doc. 82, p. 33-34).
On June 22, 2018, Defendants filed another Motion
for Summary Judgment (Doc. 136). On that same date,
Leeper also filed a Motion for Summary Judgment
(Doc. 138). On August 7, 2018, Leeper filed a Motion to
Amend Proposed Class Definitions (Doc. 157), seeking
to amend the class definitions as follows:

App. 20
Class 1 (the “Termination Class”):
The 182 persons identified on the list attached
hereto as Exhibit __, to whom Defendant
Hamilton delivered the RIF Notice on
February 5, 2016.
Class 2 (the “Reduction in Hours and
Termination Class”):
The 165 persons identified on the list attached
hereto as Exhibit __, to whom Defendant
Hamilton delivered the RIF Notice on
February 5, 2016, and:
(A)

who were not on leave for disability or
workers’ compensation as of February 5,
2016 and were offered reemployment
starting August 1, 2016;
or

(B)

to whom Defendant issued form letters
dated July 26, 2016 stating that they
were not going to be rehired beginning
August 1, 2016, or whom Defendants
rehired between February 5 and July 31,
2016, at a lower wage than as of
February 5, 2016.

(Doc. 157).
Leeper asserts that Defendants’ actions with
respect to Leeper and the Class 1 Members constituted
a “mass layoff” because 182 full-time employees
experienced an employment loss by way of a
termination under 29 U.S.C. § 2101(a)(6)(A). Leeper

App. 21
alternatively argues that Defendants’ actions
constituted a “mass layoff” with respect to Leeper and
the Class 2 Members because 165 employees
experienced a termination or reduction in hours of
work of more than 50 percent during each month of the
six-month period between February 6 and August 6,
2016.
On August 13, 2018, the Court held a hearing on the
motions (Doc. 160) and took the motions under
advisement.
PRELIMINARY MATTER
The Court must first address the order in which to
resolve the various motions. Generally, the Federal
Rules of Civil Procedure require courts to rule on the
issue of class certification “at an early practicable
time,” which is usually before deciding any merits
questions. FED. R. CIV. P. 23(c). The Seventh Circuit
has acknowledged, however, that there are situations
where it might be appropriate to rule on summary
judgment prior to addressing class certification. Cowen
v. Bank United, 70 F.3d 937, 941 (7th Cir. 1995) (Rule
23(c) “requires certification as soon as practicable,
which will usually be before the case is ripe for
summary judgment. But ‘usually’ is not ‘always,’ and
‘practicable’ allows for wiggle room.”).
At the hearing, defense counsel asked the Court to
take up the motions for summary judgment prior to the
motion for class certification. “In moving for summary
judgment before the motion for class certification has
been resolved, the defendant loses the advantage of a
judgment that has preclusive effect against all putative

App. 22
suitors but saves the heavy expense of defending
against a class action.” McCarter v. Ret. Plan for Dist.
Managers of Am. Family Ins. Grp., No. 3:07-CV-00206BBC, 2007 WL 4333979, at *5 (W.D. Wis. Nov. 16,
2007), aff’d as modified, 540 F.3d 649 (7th Cir. 2008).
One instance in which it may be appropriate for a
Court to rule on summary judgment prior to class
certification is “when there is sufficient doubt
regarding the likelihood of success on the merits of a
plaintiff’s claims.” Hakim v. Accenture U.S. Pension
Plan, 735 F. Supp. 2d 939, 956 (N.D. Ill. 2010). Another
instance is when “‘as soon as practicable’ occurs after a
case is already ‘ripe for summary judgment’” Chavez v.
Illinois State Police, 251 F.3d 612, 629, 630 (7th Cir.
2001).
In light of the likelihood of success on the merits of
Leeper’s claims and the current posture of this case,
the Court finds it to be in the interest of judicial
economy to decide the motions for summary judgment
prior to addressing class certification.
LEGAL STANDARD
Summary judgment is only appropriate if the
movant “shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” Spurling v. C & M Fine
Pack, Inc., 739 F.3d 1055, 1060 (7th Cir. 2014) (quoting
FED. R. CIV. P. 56(a)). Once the moving party has set
forth the basis for summary judgment, the burden then
shifts to the nonmoving party who must go beyond
mere allegations and offer specific facts showing that
there is a genuine issue of fact for trial. FED. R. CIV.

App. 23
P. 56(e); see Celotex Corp. v. Catrett, 477 U.S. 317,23224 (1986). The nonmoving party must offer more than
“[c]onclusory allegations, unsupported by specific
facts,” to establish a genuine issue of material fact.
Payne v. Pauley, 337 F.3d 767, 773 (7th Cir. 2003)
(citing Lujan v. Nat’l Wildlife Fed’n, 497 U.S. 871, 888
(1990)).
In determining whether a genuine issue of fact
exists, the Court must view the evidence and draw all
reasonable inferences in favor of the party opposing the
motion. Bennington v. Caterpillar Inc., 275 F.3d 654,
658 (7th Cir. 2001); see also Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 255 (1986). A “court may not assess
the credibility of witnesses, choose between competing
inferences or balance the relative weight of conflicting
evidence . . . .” Reid v. Neighborhood Assistance Corp.
of America, 749 F.3d 581, 586 (7th Cir. 2014) (quoting
Abdullahi v. City of Madison, 423 F.3d 763, 769 (7th
Cir. 2005)).
“The ordinary standards for summary judgment
remain unchanged on cross-motions for summary
judgment: we construe all facts and inferences arising
from them in favor of the party against whom the
motion under consideration is made.” Blow v. Bijora,
Inc., 855 F.3d 793, 797 (7th Cir. 2017).
ANALYSIS
The Court begins its analysis by noting that it has
federal question jurisdiction over this case pursuant to
29 U.S.C. § 2104(a)(5) and 28 U.S.C. § 1331.
The WARN Act requires employers to provide
employees with written notice of impending “plant

App. 24
closings” or “mass layoffs” at least sixty days prior to
the closing or layoffs. 29 U.S.C. § 2102. Congress
passed the WARN Act with the purpose of providing
“workers and their families some transition time to
adjust to the prospective loss of employment, to seek
and obtain alternative jobs and, if necessary, to enter
skill training or retraining . . . .” 20 C.F.R. § 639.1(a);
Roquet v. Arthur Andersen LLP, 398 F.3d 585, 586 (7th
Cir. 2005) (“[I]ts purpose is to soften the economic blow
suffered by workers who unexpectedly face plant
closings or mass layoffs.”).
The notice requirements of the WARN Act are
triggered if there is a “mass layoff.” 29 U.S.C.
§ 2102(a). Courts apply the WARN Act only to “mass
layoffs” that meet certain employment thresholds. 20
C.F.R. § 639.2. The WARN Act defines a “mass layoff”
as a reduction of force which results in employment
loss for “at least 33 percent of the employees” and “at
least 50 employees.” 29 U.S.C. § 2101(a)(3).5 An
“employment loss” is defined as: (a) an employment
termination, other than a discharge for cause,

5

Specifically, 29 U.S.C. § 2101(a)(3) provides as follows:
(3) the term “mass layoff” means a reduction in force which –
(A) is not the result of a plant closing; and
(B) results in an employment loss at the single site of
employment during any 30-day period for –
(i)(I) at least 33 percent of the employees (excluding
any part-time employees); and
(II) at least 50 employees (excluding any part-time
employees); or
(ii) at least 500 employees (excluding any part-time
employees).

App. 25
voluntary departure, or retirement, (b) a layoff
exceeding 6 months, or (c) a reduction in hours of work
of more than 50 percent during each month of any 6month period. 29 U.S.C. § 2101(a)(6).
Leeper argues that Defendants failed to provide the
necessary 60 days’ notice to himself and the proposed
class when at least 33 percent and more than 50 of
Hamilton’s employees experienced an employment loss
on February 6, 2016. Specifically, Leeper argues that
the employment loss he and the proposed class suffered
was a termination as set forth in 29 U.S.C.
§ 2101(a)(6)(A). Leeper alternatively argues6 that the
employment loss was a “reduction in hours of work of
more than 50 percent in each month of any 6-month
period,” as set forth in 29 U.S.C. § 2101(a)(6).
Under Leeper’s first theory, he argues that 158 fulltime employees were terminated out of a total of 315
full-time employees, which constitutes more than
33 percent of the Hamilton workforce. Defendants
respond that the employment loss was actually a layoff.
They argue that, since the layoff did not exceed six
months as required under 29 U.S.C. § 2101(a)(6)(B),
there was no employment loss under the WARN Act.
Thus, the Court must first address whether the
employees suffered a termination or a layoff. If the
Court finds that the undisputed facts show that the

6

While Leeper previously referred to this argument as his
alternative argument in his Motion for Partial Summary
Judgment, he now refers to the termination argument as the
“alternative argument” (Doc. 138, p. 21). Regardless, the Court will
address the arguments in the above sequence.

App. 26
employment loss was a termination, then the
termination was effective as of February 6, 2016, it
affected all 158 full-time employees, and the
subsequently rehired employees do not change that
conclusion. If the Court finds that the undisputed facts
show that the employment loss suffered was a layoff
then, as Defendants argue, the layoff did not exceed six
months, because 61 full-time employees returned to
work within the six-month period (56 were fully
restored to pre-layoff wages and 5 returned to work at
reduced wages). Under this line of reasoning, there
would have been no “employment loss” under 29 U.S.C.
§ 2101(a)(6)(B) because the layoff did not exceed six
months as to 33 percent of full-time employees.
The guidelines from the Department of Labor
explain that, for purposes of defining “employment
loss,” “termination” means the “permanent cessation of
the employment relationship” and “layoff” means the
“temporary cessation of that relationship.”7 Worker

7

A district court in the Northern District of Illinois similarly
looked to this Department of Labor regulation in order to interpret
the term “employment termination.” See Acevedo v. Heinemann’s
Bakeries, Inc., 619 F. Supp. 2d 529, 534 (N.D. Ill. 2008) (“Although
the WARN Act itself does not define ‘employment termination,” a
Department of Labor regulation states . . . ‘employment
termination’ means the ‘permanent cessation of the employment
relationship.’”). The Fourth, Sixth, and Eighth Circuits also have
looked to Department of Labor comments for guidance. See
Graphic Communications Intern. Union, Local 31-N v. Quebecor
Printing (USA) Corp., 252 F.3d 296, 299 (4th Cir. 2001) (quoting
the Department of Labor Comments defining a termination as a
“permanent cessation of the employment relationship.”); see also
Morton v. Vanderbilt University, 809 F.3d 294, 295-96 (6th Cir.
2016) (“The term ‘termination is not defined in the WARN Act, but

App. 27
Adjustment and Retraining Notification, 54 FR 1604201 (1989). Further, “it is actuality and not expectations
or terminology which control whether an employment
loss has occurred.” See Rifkin v. McDonnell Douglas
Corp., 78 F.3d 1277, 1282 (8th Cir. 1996).
The parties make much to-do about the terminology
used in the written notice and supporting
documentation given to the employees. The notice calls
it a “temporary layoff,” but the FAQs explain that a
“temporary layoff” is treated as a “termination of
employment for purposes of wages and benefits.”
Regardless of the terminology used by the employer, it
is the actuality of the event that controls. Thus, the
Court must look to whether it was a termination
involving the “permanent cessation of the employment
relationship” or a temporary layoff involving the
“temporary cessation of that relationship.” Of the 158
employees that received the written notice, 56 were
fully restored to pre-layoff wages within six months.8
Thus, there was no permanent cessation of the
employment relationship as to these 56 employees. See
Rifkin, 78 F.3d 1277 (1996) (“An employee cannot be

the Department of Labor has explained that it is ‘to have [its]
common sense meaning’ as ‘the permanent cessation of the
employment relationship.’”); see also Rifkin v. McDonnell Douglas
Corp., 78 F.3d 1277, 1282 (1996) (quoting the Department of Labor
comments).
8

These employees received years-of-service credit for purposes of
their 401(k) benefits as if they had no break in service during the
temporary layoff period and did not lose vesting by virtue of having
been placed on a temporary layoff (Doc. 136-6, p. 3; Doc. 153-11,
p. 3).

App. 28
defined as ‘terminated’ if he or she is, in fact, rehired in
the same position.”).
Because 56 of the 158 full-time employees who
received the written notice returned to work within six
months, Leeper cannot establish that more than 33
percent of the 315 full-time employees experienced an
employment termination. Instead, these workers
suffered a layoff (or a “temporary cessation” of the
employment relationship) because they returned to
work at pre-layoff wages. While the Court is certainly
empathetic to the employees’ situation, the Warn Act
“draws a lot of bright lines” and “[b]right lines must be
enforced consistently or they won’t work.” Phason v.
Meridian Rail Corp., 479 F.3d 527, 530 (7th Cir. 2007);
see also Ellis v. DHL Exp. Inc. (USA), 633 F.3d 522,
526 (7th Cir. 2011) (“Despite the lack of practical
distinction between eliminating 49 or 50 full-time jobs,
or between laying off 32% or 33% of a workforce in a
thirty-day period, the numerical thresholds in the
WARN Act are immutable.”).
Leeper alternatively argues that Defendants’
actions constituted a “reduction in hours of work of
more than 50 percent in each month of any 6-month
period,” as set forth in 29 U.S.C. § 2101(a)(6).
Specifically, Leeper argues that at least 141 (44%) of
Hamilton Coal’s 315 full-time workers suffered a
reduction in hours of work of more than fifty percent
during the six-month period of February 6, 2016
through August 6, 2016. The Court has already found
that the employment loss suffered by the employees
was a layoff (that did not exceed 6 months for more
than 33% of the full-time workforce). The issue then

App. 29
becomes whether a layoff can simultaneously be
considered a “reduction in hours of work of more than
50 percent in each month of any 6-month period.”
The relevant section of the WARN Act reads as
follows: “the term ‘employment loss’ means (A) an
employment termination, other than a discharge for
cause, voluntary departure, retirement, (B) a layoff
exceeding 6 months, or (C) a reduction in hours of work
of more than 50 percent during each month of any 6month period.” 29 U.S.C. § 2101(a)(6) (emphasis
added).
Leeper argues that, under the plain language of the
statute, an employment loss occurs when any one of the
subsections apply, and the WARN Act clearly
contemplates that an employee may suffer multiple
employment losses, necessitating separate notices.
Defendants respond by pointing out that the plain
language of the statute distinguishes between the
terms “layoff” and “reduction in hours” and argue that
adopting Leeper’s interpretation would render section
subsection (B) meaningless.
Under the rules of statutory interpretation, courts
“must first look to the language of the statute and
assume that its plain meaning accurately expresses the
legislative purpose.” U.S. v. Miscellaneous Firearms,
Explosives, Destructive Devices and Ammunition, 376
F.3d 709, 712 (7th Cir. 2004) (citing Grzan v. Charter
Hosp. of Northwest Ind., 104 F.3d 116, 122 (7th Cir.
1997)). “In determining whether the meaning of
statutory language is plain or ambiguous, we look to
the specific language at issue, the context in which the
language is used, and the broader context of the statute

App. 30
as a whole.” Id. (citing Robinson v. Shell Oil Co., 519
U.S. 337, 341 (1997)). Courts should not “construe a
statute in a way that makes words or phrases
meaningless, redundant, or superfluous.” Id. (citing
Welsh v. Boy Scouts of America, 993 F.2d 1267, 1272
(7th Cir. 1993)).
The WARN Act’s definition of “employment loss”
separately and alternately delineates “termination,”
“layoff,” and “reduction in hours,” thereby indicating
that such terms encompass distinct actions by the
employer.9 Of course, an employee who experiences a
layoff that exceeds six months also experiences a onehundred percent reduction of work during each month
of that six-month period. But if a subsection
(C) “reduction in hours” also covers the situation in
which an employer implements a layoff, there would be
no purpose for subsection (B) because every layoff
exceeding six months would already be addressed by
subsection (C). This would render subsection
(B) meaningless, redundant, and superfluous.10
9

As Defendants aptly point out, there are logical and practical
reasons for distinguishing a “layoff” from a “reduction in hours.”
For example, where as in this case the employer implements a
temporary layoff, the employee is free to obtain other employment
during the layoff period. This differs from a situation in which
employers could string workers along by continuing to regularly
occupy their time while significantly reducing their work hours on
an indefinite basis.
10

Subsection (C) also would encompass a layoff exceeding 5½
months, but falling short of 6 months, which many of the
employees experienced in this case. That is because the moment
the layoff exceeds 5½ months, the employee would have
experienced a reduction in work hours of more than fifty percent

App. 31
Leeper has not cited to any controlling authority
indicating that the Court should read the statute in the
way that he suggests. Leeper cites to Phason v.
Meridian Rail Corp., 479 F.3d 527, 527 (7th Cir. 2007),
but this case does not hold that a temporary layoff may
be simultaneously treated as a reduction in hours
under subsection (C).
Phason involved a plant closing, which 29 U.S.C.
§ 2101(a)(2) defines as “any permanent or temporary”
shutdown that “results in an employment loss at the
single site of employment during any 30-day period for
50 or more employees.” Workers who lost their jobs
with their employer, Meridian Rail Corporation
(“Meridian”), were invited to apply for jobs with NAE
Nortrak, Inc. (“Nortrak”), the company that agreed to
buy Meridian’s assets. Id. at 528. Although the
agreement was in place when the employees were let go
by Meridian, the transaction did not close until one
week after Meridian had severed all ties to the former
workers. Id. The district court granted summary
judgment for Meridian on the basis that the WARN Act
did not apply because Nortrak eventually hired many
of the workers back, and thus 50 or more employees did
not suffer an employment loss. Id. at 529. On appeal,

in each month of a six-month period. Thus, if the Court construes
the statute as Leeper suggests, employers would be told under
subsection (B) that they need to give advanced notice under the
WARN Act of a layoff expected to exceed six months, and they
would have to read between the lines to learn under subsection (C)
that they also need to give advanced notice under the WARN Act
for a layoff expected to exceed 5½ months. The Court does not
believe that Congress intended the WARN Act to operate in such
a manner.

App. 32
the plaintiffs argued that all employees that Meridian
let go suffered a termination on December 31, 2003,
regardless of whether they were hired by Nortrak one
week later. Id.
The Seventh Circuit Court of Appeals agreed with
the plaintiffs, holding that Meridian terminated the
employees within the meaning of subsection (A) when
it closed its operations and “severed all ties” to the
workers on December 31, 2003. Id. The Court of
Appeals reasoned that, even though Nortrak hired
many of these employees, the sale did not close until
January 8, 2004, so Section 2101(b)(1)11 could not be
used to avoid the classification of the event as an
“employment loss.” Id. at 529-530.
The Court of Appeals briefly addressed Meridian’s
argument that subsection (C) did not apply. Id. at 529.
Specifically, the Court of Appeals dismissed this
argument as irrelevant, stating “[b]ut what of that? An
‘employment loss’ occurs when any one of the
subsections applies.” Id. (emphasis in original).
Because the Court of Appeals had already found the
employment loss to be a termination under subsection
(A), it did not matter whether subsection (C) was not
satisfied. Id. This case does not shed any light on
whether employees who experienced a temporary layoff
but returned to work prior to six months may

11

Section 2101(b)(1) provides: Notwithstanding any other provision
of this Act, any person who is an employee of the seller (other than
a part-time employee) as of the effective date of the sale shall be
considered an employee of the purchaser immediately after the
effective date of the sale.

App. 33
nevertheless prove a “reduction in hours” employment
loss under subsection (C).
Leeper also cites to Graphic Communs. Int’l Union,
Local 31-N v. Quebecor Printing Corp., 252 F.3d 296,
299 (4th Cir. 2011), to argue that an employee can
suffer an employment loss for “any or all” of a
termination, layoff, or reduction in hours. In Quebecor,
the Court of Appeals for the Fourth Circuit explained
that employees may experience separate and successive
employment losses necessitating separate notices, for
example, where an employee who experienced a
reduction in hours is subsequently laid off or
terminated. Id. This case does not hold, however, that
a single event can constitute an employment loss under
two different provisions of the statute.
The only case that appears to have considered this
issue so far (perhaps because it is a relatively novel
theory) is United Steel v. Ainsworth Engineered (USA),
LLC, Civil No. 07-4731 ADM/RLE, 2008 WL 4857905,
at *5 (D. Minn. Nov. 10, 2008). There, the Court
decided that a temporary layoff could not be
simultaneously treated as a reduction in hours under
subsection (C). Id. The Court reasoned that “if the
Court were to read § 2101(a)(6) so as to permit the
application of [subsection] (C) to an event expressly
contemplated by [subsection] (B), there simply would
be no need for [subsection] (B) since every layoff that
exceeds six months also results in a reduction in work
hours of more than fifty percent in each month of a sixmonth period.” Id. at *5. The Court determined that,
because the employment loss suffered was a layoff,
subsection (C) was inapplicable. Id. at *6. The Court

App. 34
agrees with this conclusion. Unless or until the
Seventh Circuit Court of Appeals says otherwise, the
Court will not construe the Warn Act in a way that
makes subsection (B) meaningless, redundant, and
superfluous.
Overall, the Court concludes that the employees did
not suffer an employment loss as that term is defined
in § 2101(a)(6). Thus, any failure by Hamilton to
provide 60 days’ advanced notice before instituting the
layoff did not constitute a violation of the WARN Act.
In light of this finding, the Court need not address the
argument that Alliance was not an employer under the
WARN Act.
CONCLUSION
For the reasons explained above, the Court
GRANTS12 the Motion for Summary Judgment filed by
Defendants (Doc. 71), GRANTS the Motion for
Summary Judgment filed by Defendants (Doc. 136),
DENIES the Motion for Partial Summary Judgment
filed by Leeper (Doc. 138), DENIES as moot the
Motion to Oppose Plaintiff’s Proposed Class
Certification or to Stay Class Certification Pending
Resolution of Defendants’ Motion for Summary
Judgment filed by Defendants (Doc. 72), DENIES as
moot the Motion to Certify Class filed by Leeper
(Doc. 82), and DENIES as moot the Motion to
Amend/Correct Motion to Certify Class filed by Leeper
(Doc. 157). The Court also unrefers and DENIES as
12

The Court grants this motion only to the extent it relies upon the
revised and corrected numbers as argued by counsel and agreed to
by both sides at the hearing on August 13, 2018.

App. 35
moot the Motion for Extension of Discovery Deadline
for Purposes of Hulett Guill’s Deposition and Related
Discovery (Doc. 129). The case is CLOSED, and
judgment will be entered accordingly.
IT IS SO ORDERED.
DATED: December 17, 2018
s/ Nancy J. Rosenstengel
NANCY J. ROSENSTENGEL
United States District Judge

App. 36

APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF ILLINOIS
Case No. 16-CV-250-NJR-DGW
[Filed December 17, 2018]
__________________________________________
CARL LEEPER, individually and on
)
behalf of all others similarly situated,
)
Plaintiff,
)
)
vs.
)
)
ALLIANCE RESOURCE PARTNERS, L.P. )
and HAMILTON COUNTY COAL, LLC.,
)
Defendants.
)
_________________________________________ )
JUDGMENT IN A CIVIL ACTION
DECISION BY THE COURT.
This matter having come before the Court, and the
Court having rendered a decision,
IT IS ORDERED AND ADJUDGED that,
pursuant to the Order dated December 17, 2018
(Doc. 166), judgment is entered in favor of Defendants
Alliance Resources Partners, L.P. and Hamilton
County Coal, LLC, and against Plaintiff Carl Leeper.
Leeper shall recover nothing, and this action is
DISMISSED in its entirety.

App. 37
DATED: December 17, 2018
MARGARET M. ROBERTIE,
Clerk of Court
By:

s/ Deana Brinkley
Deputy Clerk

APPROVED: s/ Nancy J. Rosenstengel
NANCY J. ROSENSTENGEL
United States District Judge

App. 38

APPENDIX D
United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
No. 19-1109
[Filed October 25, 2019]
__________________________________________
CARL LEEPER, individually and on
)
behalf of all others similarly situated,
)
Plaintiff-Appellant,
)
)
v.
)
)
HAMILTON COUNTY COAL, LLC, and
)
ALLIANCE RESOURCE PARTNERS, L.P., )
Defendants Appellees.
)
_________________________________________ )
Before
KENNETH F. RIPPLE, Circuit Judge
DANIEL A. MANION, Circuit Judge
DIANE S. SYKES, Circuit Judge
Appeal from the
United States District Court
for the Southern District of Illinois.
No. 16-cv-250

App. 39
Nancy J. Rosenstengel,
Chief Judge.
ORDER
On consideration of the petition for rehearing and
for rehearing en banc, no judge in active service has
requested a vote on the petition for rehearing en banc,1
and all of the judges on the original panel have voted to
deny rehearing. It is therefore ordered that the petition
for rehearing and for rehearing en banc is DENIED.

1

Circuit Judge Ilana Diamond Rovner did not participate in the
consideration of the petition for rehearing.

App. 40

APPENDIX E
29 U.S.C. § 2101
(a) Definitions. As used in this chapter—
***
(3) the term “mass layoff” means a reduction in
force which—
(A) is not the result of a plant closing; and
(B) results in an employment loss at the single
site of employment during any 30-day period
for—
(i)(I) at least 33 percent of the employees
(excluding any part-time employees); and
(II) at least 50 employees (excluding any
part-time employees); or
(ii) at least 500 employees (excluding any
part-time employees);
***
(5) the term “affected employees” means employees
who may reasonably be expected to experience an
employment loss as a consequence of a proposed
plant closing or mass layoff by their employer;
***

App. 41
(6) subject to subsection (b), the term “employment
loss” means (A) an employment termination, other
than a discharge for cause, voluntary departure, or
retirement, (B) a layoff exceeding 6 months, or (C) a
reduction in hours of work of more than 50 percent
during each month of any 6-month period;
***
(8) the term “part-time employee” means an
employee who is employed for an average of fewer
than 20 hours per week or who has been employed
for fewer than 6 of the 12 months preceding the
date on which notice is required.

App. 42
29 U.S.C. § 2102
(a) Notice to employees, State dislocated worker
units, and local governments
An employer shall not order a plant closing or mass
layoff until the end of a 60-day period after the
employer serves written notice of such an order—
(1) to each representative of the affected employees
as of the time of the notice or, if there is no such
representative at that time, to each affected
employee; and
(2) to the State or entity designated by the State to
carry out rapid response activities under section
3174(a)(2)(A) of this title, and the chief elected
official of the unit of local government within which
such closing or layoff is to occur.
***
(c) Extension of layoff period
A layoff of more than 6 months which, at its outset,
was announced to be a layoff of 6 months or less, shall
be treated as an employment loss under this chapter
unless—
(1) the extension beyond 6 months is caused by
business circumstances (including unforeseeable
changes in price or cost) not reasonably foreseeable
at the time of the initial layoff; and
(2) notice is given at the time it becomes reasonably
foreseeable that the extension beyond 6 months will
be required.

App. 43
20 C.F.R. § 639.1
(a) Purpose of WARN. The Worker Adjustment and
Retraining Notification Act (WARN or the Act) provides
protection to workers, their families and communities
by requiring employers to provide notification
60 calendar days in advance of plant closings and mass
layoffs. Advance notice provides workers and their
families some transition time to adjust to the
prospective loss of employment, to seek and obtain
alternative jobs and, if necessary, to enter skill training
or retraining that will allow these workers to
successfully compete in the job market. WARN also
provides for notice to State dislocated worker units so
that dislocated worker assistance can be promptly
provided.

App. 44
20 C.F.R. § 639.3
§ 639.3 Definitions.
(a) Employer. (1) The term “employer” means any
business enterprise that employs (i) 100 or more employees, excluding part-time
employees; or
(ii) 100 or more employees, including part-time
employees, who in the aggregate work at least 4,000
hours per week, exclusive of hours of overtime.
Workers on temporary layoff or on leave who have a
reasonable expectation of recall are counted as
employees. An employee has a “reasonable expectation
of recall” when he/she understands, through notification
or through industry practice, that his/her employment
with the employer has been temporarily interrupted and
that he/she will be recalled to the same or to a similar
job. The term “employer” includes non-profit
organizations of the requisite size. Regular Federal,
State, local and federally recognized Indian tribal
governments are not covered. However, the term
“employer” includes public and quasi-public entities
which engage in business (i.e., take part in a commercial
or industrial enterprise, supply a service or good on a
mercantile basis, or provide independent management
of public assets, raising revenue and making desired
investments), and which are separately organized from
the regular government, which have their own
governing bodies and which have independent authority
to manage their personnel and assets.
***

App. 45

APPENDIX F
HAMILTON COUNTY COAL, LLC
February 5, 2016
VIA HAND DELIVERY
Carl Leeper
XXXXXXXXXXXXXXX
Re: Temporary Layoff Notice
Dear Carl,
I regret to inform you that, due to operational
considerations, Hamilton County Coal, LLC (“Hamilton
County Coal”) is placing you on temporary layoff for the
period commencing on February 6, 2016 and ending on
August 1, 2016 (“Layoff Period”). On August 1, 2016,
you may return to your at-will employment with
Hamilton County Coal.
During the Layoff Period, and beginning effective
February 6, 2016, you will not be employed by
Hamilton County Coal and you are free to pursue other
endeavors. Bumping rights do not exist with respect to
the temporary layoff and the Layoff Period.
You will receive additional information related to
any separation benefits to which you may be entitled.
Again, I regret to have to provide this information
to you. If you have any questions, please contact the

App. 46
Human Resource Department for Hamilton County
Coal, LLC at (618) 643-5500.
Sincerely,
/s/ Ezra French
Ezra French
General Manager
Hamilton County Coal, LLC

App. 47

APPENDIX G
Hamilton County Coal
Frequently Asked Questions Concerning the
Temporary Layoffs
PART I: WAGES
1.

If I am temporarily laid off, what is my
employment status?

A temporary layoff is treated as a termination of
employment for purposes of wages and benefits.
2.

Am I eligible for unemployment insurance?

You are eligible for unemployment insurance if you
meet the applicable state law requirements. Your
employer will not contest your application for
unemployment insurance benefits.
3.

Do I have to repay the pay advance I
received on August 14, 2015?

Yes. If you elected to receive a pay advance, then, per
your agreement, the amount of the advance will be
withheld from your final pay.
PART II: ALLIANCE HEALTH PLAN
4.

What happens to my health care coverage?

Company-paid health care coverage, including medical,
dental, vision and prescription drug, will end as of your
employment termination date. You will be eligible for

App. 48
COBRA continuation coverage if you elect COBRA and
pay the “premium” amount.
5.

What is the “premium cost” for COBRA
coverage?

The premium cost is determined annually. Currently,
the amount is $795.20 per month for individual
coverage and $2,067.50 per month for family coverage.
6.

How can I get more information about
COBRA?

For more information on COBRA continuation coverage
and how to make an election, see the Summary Plan
Description (“SPD”) for the Alliance Health Plan, which
you can access at www.coalbenefits.com under the
Health Care tab. Your user name is hamilton and your
password is longwall. A COBRA package will be mailed
to you at your address on file within 1-2 weeks after
your termination of employment.
7.

Do I have other options for health care
coverage?

Yes. In considering whether to elect COBRA
continuation coverage, you should take into account
your other options.
You may be able to enroll in another group health plan
for which you are otherwise eligible such as a plan
sponsored by your spouse’s employer. If you have the
option available, there generally is a special enrollment
period, which allows you to enroll within 30 days after
your Alliance health coverage ends because of a
termination of employment.

App. 49
You also have the option to purchase health coverage
through the Health Insurance Marketplace during the
60-day “special enrollment period” that begins after
your employment termination date.
These options may cost less than COBRA continuation
coverage under the Alliance Health Plan.
8.

What is the Health Insurance Marketplace?

The Health Insurance Marketplace refers to the federal
and state health exchanges that were established as
part of the Affordable Care Act. The Marketplace offers
“one-stop shopping” to find and compare private health
insurance options.
If you purchase Marketplace health insurance, you
could be eligible for a premium tax credit for lower
income individuals, which can significantly reduce how
much you pay for Marketplace health care. You also
may qualify for free or low-cost coverage from Medicaid
or the Children’s Health Insurance Program (CHIP).
You can access the Marketplace for your state at
www.HealthCare.gov to compare prices and subsidies.
9.

When can
coverage?

I

enroll

in

Marketplace

You have 60 days from the time you terminate
employment to enroll in the Marketplace. After 60 days
your special enrollment period will end and you may
not be able to enroll for coverage until the open
enrollment period for calendar year 2017.

App. 50
10.

Can I continue to submit eligible medical
claims for reimbursement under my Health
Care FSA?

If you signed up to participate in the Health Care FSA
and are making contributions through payroll
deduction, your participation will end on the day your
employment is terminated. However, you may continue
to file claims for any eligible expenses incurred
between January 1 - and your termination date (up to
the maximum amount of $2,550, plus any carryover
amount you may have from 2015, less the amount of
any reimbursements you have already received).
Claims must be submitted by March 31, 2017.
Under COBRA, you may elect to continue participation
in the Health Care FSA but your contributions will lose
the tax advantages for contributions after you
terminate employment. See the SPD for the Health
Care FSA for more details on when you might want to
elect COBRA continuation coverage for the Health
Care FSA. You can access the Health Care FSA SPD at
wvvw.coalbenefits.com under the Health Care tab.
11.

Can I continue to use the Wells, PSC on-site
clinic after my termination of employment?

No. The Wells, PSC on-site clinic is part of the Alliance
Health Plan. Only those terminated employees who
elect and pay for COBRA continuation coverage may
use the on-site clinic.

App. 51
PART III: ALLIANCE 401(k) PLAN
12.

Can I take a distribution from my account
in the Alliance 401(k) Plan?

Yes. You can take a distribution of all or a portion of
your vested account balance in the Alliance 401(k)
Plan.
13.

Do I have to take a distribution from my
401(k) account?

No. You can leave the money in the 401(k) Plan and
take it out at any later time.
14.

What if I need only some of the money in
my 401(k) account?

You do not have to either take it all now or leave it all
in the 401(k) Plan. You may request periodic lump sum
distributions from your 401(k) account to match your
financial needs.
15.

What are the tax consequences of taking a
distribution?

The amount of the distribution you receive is taxable to
you when you receive it. Also, you may be subject to an
additional 10% early distribution penalty tax if you are
not yet age 55 or disabled.
16.

What happens if I have a loan from the
401(k) Plan?

You may continue to pay off your loan with after-tax
dollars. If you do not make your monthly payments,
your loan will be in default 90 days after the date of
your first missed payment. If your loan is in default, it

App. 52
will be treated as a deemed distribution from the
401(k) Plan in 2016, and your account balance will be
reduced by the amount of the deemed distribution.
Your deemed distribution will be taxable to you, and
you may be subject to an additional 10% early
distribution penalty tax if you are not yet age 55 or
disabled.
17.

What happens if I take a distribution of my
full 401(k) account and I have a loan
outstanding?

Any unpaid, outstanding and defaulted loan, plus the
amount distributed to you will be taxable to you. You
also may be subject to an additional 10% early
distribution penalty tax if you are not yet age 55 or
disabled.
18.

Where can I get more information about
distributions and other features of the
Alliance 401(k) Plan?

The SPD for the Alliance 401(k) Plan is available
online at www.coalbenefits.com under the Retirement
tab (Profit Sharing and Savings Plan). Your user name
is hamilton and your password is longwall.
PART IV: DISABILITY BENEFITS
19.

What happens to my participation in the
disability benefit programs?

Your coverage under the Alliance short-term disability
long-term disability benefit programs ends on your
termination of employment date.

App. 53
20.

If I am currently receiving short-term
disability benefits, will I continue to
receive them for the remainder of the 26week period?

No. Under the terms of the short-term disability
program, payments cease on termination of
employment.
21.

If I am currently receiving short-term
disability benefits, can I still apply for longterm disability benefits after I have
completed my 26-week short-term
disability period?

No. To be eligible for long-term disability benefits, you
must meet all of the eligibility conditions before you
terminate employment.
PART V: LIFE INSURANCE AND AD&D
22.

Will I still have life insurance after my
termination of employment date?

Your Company-paid basic life insurance (2 x base pay)
ends on your employment termination date. You have
the option to convert the insurance to an individual
policy. If you want to convert to an individual policy,
you must contact MetLife within 31 days of your
employment termination date. You can contact MetLife
at 877-275-6387. They will ask you for the contract
number, which is 154622-1-G.

App. 54
23.

If I purchased additional life insurance or
spouse or dependent life insurance, what
happens?

Any additional life insurance that you purchased ends
on your termination of employment date. You have the
option to convert the insurance to an individual policy.
If you want to convert to an individual policy, you must
notify MetLife within 31 days of your employment
termination date. To obtain an application, contact
MetLife at 877-275-6387. They will ask you for the
contract number, which is 154622-1-G.
24.

What happens to my AD&D benefit?

Your participation in the Accidental Death and
Dismemberment Benefits Program ends on your
termination from employment date.
PART VI: OTHER BENEFITS
25.

Do I lose my accrued and unused vacation
days?

No. Your accrued and unused vacation days will be
paid out to you in a lump sum.
26.

My child has applied for the scholarship
program. Will she still be considered a
candidate?

Yes. If you, as the parent, meet the Program’s
eligibility requirement, your child’s application will be
considered.

App. 55
27.

I am currently on FMLA leave, will I
continue to receive wages and benefits
during the remainder of the FMLA period
even though I have received notice that I
am temporarily laid off.

No. The Family Medical Leave Act requirements do not
apply after termination of employment.
You can get detailed information about your
benefits from the following sources:
Explanation of Benefits:
the SPDs for each
benefit can be found on
line.

www.coalbenefits.com.
User name: hamilton
Password: longwall

If there is are any
discrepancies between
these FAQs and the
SPDs, the SPDs will
take precedence.
Alliance Coal Benefit
Plan Administration
Department

877-262-5471

Medical/Dental/Vision
Claims

WEB-TPA
1-888-769-2432

Prescription Drug

Envision Rx
1-800-361-4542

COBRA Administration

WEB-TPA
800-758-2525

App. 56
Alliance 401(k) Plan

NestEgg
866-412-9026 or access
your account at
www.benefitwebaccess.
net/mynestegg/

Medical FSA

Frost
1-800-860-8251

App. 57

APPENDIX H
ALLIANCE COAL, LLC
August 1, 2015
Carl Leeper
XXXXXXXXXXXXXXX
Re: Transition advance payment/ change in pay
frequency
Dear Carl:
First and foremost we would like to welcome you to
the Alliance organization and want to do all we can to
make this transition as smooth as possible for you. Due
to the difference in pay frequency of White Oak
Resources, LLC (biweekly paid) and Alliance WOR
Processing, LLC (weekly paid), the transition from
biweekly to weekly will result in you not receiving your
expected “normal” pay amount on Friday August 14,
2015. To avoid causing you any inconvenience Alliance
would like to offer you an advance to be paid on
August 14, 2015 in the amount of either a.) hourly paid
employees XX hours of pay at your regular hourly rate
or b.) salary paid employees XX week of pay at your
current rate of pay. This advance will not be recovered
until your employment ends with Alliance by either
retirement or termination of employment (voluntary or
involuntary). Taxes are required to be withheld on this
advance and the recovery is pretax to ensure there is
no double taxation.

App. 58
Please make your desired selection below, sign and
return this letter to the White Oak payroll department.
X a) I elect to receive an advance on 8/14/2015 and
agree to have this advance withheld from the final
wages paid to me by Alliance WOR Processing, LLC
(or its successor) upon the end of employment at
some future date.
__ b) I elect not to receive an advance payment on
8/14/2015.
Please contact the payroll or HR/benefits department
should you have further questions.
Sincerely,
Alliance WOR Processing, LLC
Employee Signature:
/s/ Carl Leeper
Date: 8-3-15
73102 Leeper, Carl

